No. 20-388

IN THE

Supreme Court of tl|r Mniitb
Lingfei Sun,
Petitioner,
—v.—

City of New York, New York City Health and Hospitals
Corporation, Elmhurst Hospital, Police Officer Sgt.
Cunningham, Yuanfang Chen, M.D., Sostre, S. Samuel, M.D.,
Shanwan Chen, M.D., Mihai Iordache, M.D., Yun Li, M.D.,
Hyekyung Lee, M.D., Richard Wang, M.D., Youdu Li, Qiyin Li,
Linngor Tsang,
Respondents.
ON petition for writ of certiorari to
the united states court of appeals for the second circuit

PETITION FOR REHEARING

Lingfei Sun
87-11 52 Avenue
Elmhurst, New York 11373
Mailing Address:
P.O. Box 737823
Elmhurst, New York 11373
(917) 379-7351
lfs2020912@yahoo.com
Petitioner Pro Se

RECEIVED
JAN - 5 2021
OFFICE OF THE CL?>;K
SUPREME C'T—' US.

1

TABLE OF CONTENTS
Page
1

PETITION FOR A REHEARING ..
I. REHEARING SHOULD BE GRANTED TO
REVIEW PERTITIONER’S LAWSUIT CASE
U.S. COURT OF APPEALS SECOND CIRCUIT
(low courts) JUDICAL ABUSE POWER
__ The Respondents-Defendants’ Malicious Vicious
Continuing Violation Insidiously Cruelly Damaged

2

Ruined The Petitioner-Plaintiffs Life....................

II. REHEARING SHOULD BE GRANTED TO
REVIEW THE PETITIONERS LAWSUIT CASE
FURTHER CONSIDER ATION COMPENSATE ME
__ Judicial Hearing and Trial Rights
Constitutional Rights for Justice.......
CONCLUSION

6

10

11

TABLE OF AUTHORITIES
Page
Case
Builder’s Dev. Group, L.L.C., v. Smith ,
No. 23846, 2010 WL. 3448574
(Ohio Ct. App. Sept. 3, 2010)............ .

5

Lavolor v. National Screen Service Corp.,
349 U.S. 322 (1955).............................

5

1
PETITION FOR REHEARING

Petitioner Pro Se, Lingfei Sun respectfully moves
this Court for an order (1) vacating its denial (dated
December 07, 2020) of the petition for a writ of
certiorari (Docket 20-388), and (2) granting the
Petitioner’s Petition for A Writ of Certiorari to review
my Federal Lawsuit case, for U.S. Court of Appeals
Second Circuit (and low court) had severe judicial
abuse which resulted in the Petitioner’s lawsuit
against the Respondents (The City of New York,
Elmhurst Hospital et al,) was wrongfully dismissed.
The U.S. Court of Appeals Second Circuit (and low
court)’s Judicial abuse power covered up the
Respondents’ a series of related continuing violations
- repeats of NYPD police brutally broken my room’s
door and brutally and maliciously arrested me (the
good person), and repeats of Elmhurst Hospital
psychiatric Professionals’ continuing violations
cruelly harmed me. The Petitioner’s Civil Rights and
Constitutional Rights were seriously violated under
42 U.S. C. sections 1981 and 1983 and first, fourth,
fifth, eight and fourteenth amendments to the United
States Constitution. The U.S. Court of Appeals
Second Circuit (and low court)’s judicial abuse power
caused to the Petitioner’s life damage and ruin
permanently.

2

REHEARING SHOULD BE GRANTED TO
I.
REVIEW THE PETITIONER’S LAWSUIT CASE
(U.S. COURT OF APPEALS SECOND CIRCUIT
(low courts)’ JUDICIAL ABUSE POWER).
__ The Respondents’ (the City of New York,
Elmhurst Hospital et al,) Malicious and Vicious
Continuing Violations Insidiously and Cruelly
Damaged and Ruined the Petitioner’s life.
(Please See “STATEMENT OF THE CASE” at the
Petitioner’s Petition for A Writ of Certiorari Docket
20-388 at page 2-18)
1. U.S. Court of Appeals Second Circuit
wrongfully affirmed low court’s dismissal Order and
Judgment, Low court wrongfully dismissed my
Lawsuit’s the beginning part (August 2003) of the
Respondents-Defendants’ series violation as untimely
against them and unconstitutionally barred
applicable continuing violation Doctrine Law to my
Lawsuit case. The Respondents-Defendants’ (the
City of New York, Elmhurst Hospital et al) violations
to me were insidiously tortuous acts as a chain ring,
that they premeditated arranged to maliciously
violate and harm me. They insidiously and
maliciously arranged first event for harm me at
August 2, 2003 (August 2003), they connected NYPD
police brutally arrested me (the normal and good
person) to Elmhurst Hospital Mental Emergency
Room for performing maliciously forced CT Brain
Scan on me, Elmhurst Hospital illegally locked up me
who was normal, healthy and no mental illness at all

3
into Psychiatric Ward (Hospitalization) harmed me.
Again they made second premeditated event to harm
me that was their continuing violation to me on
January 2005. More again they made third event to
harm me, which occurred on March 2005. Continually
their fourth event occurred on July to September
2005, it was the series continuing violation result of
events one, two and three.
The Respondents-Defendants’ continuing violations
were the repeats of NYPD police brutally broken my
room’s door and brutally arrested me (the good
person) and the repeats of Elmhurst Hospital’s cruel
continuing violation to me, illegally locked up me (the
normal and no mental illness person) into psychiatric
ward (Hospitalization).
I am the good person, normal and no mental illness
at all ever, but I was forcibly locked into the
psychiatric ward (Hospitalization). My Civil Rights
and Constitutional Rights were violated viciously. My
life was threatened every minute, Elmhurst Hospital
and doctors illegally made fraudulent Certificate of
Examining Physician Certifications without any
examine on me and even didn’t talk to me one time,
that the Elmhurst Hospital’s illegal Certificate of
Examining
Physician
Certifications
they
intentionally used for applying orders from Mental
Hygiene Court to lock me in the psychiatric ward and
forced me to take medication. The RespondentsDefendants maliciously harmed me and ruined my
life that they were more insidious and brutal than

4
cruel killers used weapon to damage and took
innocent person’s life away.
In Continuing Violation Doctrine Law my lawsuit
overcomes time-limitation because the RespondentDefendants’ entire series of the continuing violation
that was from the beginning at August 2, 2003, that
all were done intentionally, wrongfully and
maliciously by the Respondents-Defendants (the City
of New York, Elmhurst Hospital et al) to harm me. So
in the applicable law “Continuing Violation Doctrine”
the Petitioners Federal lawsuit against the
Respondents-Defendants’ the part of the series
continuing violation at August 2003 was timely
against the Respondent-Defendants.
I have the Rights and meet the criteria to apply the
continuing violations doctrine Law and I have Rights
entitle to proceed with my federal Lawsuit (U.S.
District Court Eastern District Court of New York 07
CV 04868) against the Respondents-Defendants’
continuing violation. The Court of Appeals Second
Circuit unconstitutionally affirmed the low court’s
dismissal order and Judgment.
(See United States Court of Appeals Second
Circuit’s SUMMARY ORDER at Petition for A Writ
of Certiorari Docket 20-388 Appendix page 1-8)
The Courts (U.S. Court of Appeals Second
2.
Circuit and Eastern District Court of New York)
wrongfully used preclusion (res judicata) to ban my
federal
Lawsuit
against
the
Respondents-

5
Defendants. My federal Lawsuit case has continuing
facts and new proven happened to the case, with new
facts and proven, claim preclusion (res judicata) does
not ban my federal Lawsuit case. U.S. Court of
Appeals Second Circuit covered up the RespondentsDefendants’ malicious violations harmed me,
wrongfully affirmed the low court’s dismissal order
(and Judgment).
As the Supreme Court explained more than 60
years ago in Lawlor v. National Screen Service Corp.,
349 U.S.322 (1955), “res judicata does not ban a suit,
even if it involves the same course of wrongful
conduct as alleged earlier, so long as the suit alleged
new facts or worsening of the earlier condition,
A principle advanced in Ohio case that “the binding
effect of res judicata has been held not to apply when
fairness and justice would not support it.” Builder’s
Dev. Group. L.L.C., v. Smith, No. 23846. 2010 WL.
3448574. At *3 (Ohio Ct. App. Sept. 3, 2010).
U.S. Court of Appeals Second Circuit seriously
violated my constitutional Rights under 42 U.S. C.
sections 1981 and 1983 and first, fourth, fifth, eight,
and fourteenth amendments to the United States
Constitution, that substantially prejudiced and
impaired my life permanently.
(See U.S. Eastern District Court of New York
dismissal Order and Judgment “Docket 07 CV 04868”
at The Petitioner’s Petition for A Writ of Certiorari
Docket 20-388 Appendix page 11-19).

6

REHEARING SHOULD BE GRANTED TO REVIEW
THE PETITIONER’S LAWSUIT CASE FURTHER
CONSIDERATION - COMPENSATE ME
__ Judicial Hearing and Trial
Constitutional Rights for Justice

Rights

are

1. The Petitioner’s lawsuit raised the facts (must
judicial trial my case), but low Court abused judicial
power, without having a judicial hearing (my case)
and without having a judicial trial (my case) to cover
up the Respondents-Defendants’ malicious violations.
U.S. Court of Appeals Second Circuit wrongfully
affirmed the low court’s dismissal order (and
Judgment) as preclusion and untimely to against the
Respondents. The low Courts abused judicial power.
Judicial Hearing Rights and Judicial Trial Rights
are Constitutional Rights that low Courts must have
judicial hearing and Trial (my case) for Justice. But
the low Courts harbored the RespondentsDefendants’ (NYPD police, Elmhurst Hospital et al)
violations unconstitutionally that harmed me (the
people of civilians) and that further caused to more
destruction and harm to me permanently.

2. The facts and what happened as stated; my life
was saved because I have had Mental Health
Supreme Court hearing for justice. At the Mental
Health Supreme Court’s hearing, according clear
facts that I was normal, healthy and no mental
illness at all, the Mental Health Supreme Court

7
judged that the Elmhurst Hospital and the doctors
maliciously abused and cruelly violated all laws, I
was discharged forthwith (year of 2005) from
Elmhurst Hospital psychiatric ward (Hospitalization).
(See Mental Health Supreme Court Judge HON.
JANICE A. TAYLOR’s Order at the Petitioner’s
Petition for A Writ of Certiorari Docket 20-388 Appx.
Page 22, and the details at page 12-18)
From August 2, 2003 to now, December 2020, it
already be more than seventeen years, I have
from
Respondents-Defendants’
suffered
the
premeditated harm, the maliciously forced CT Brain
Scan on me at August 2, 2003; I have suffered from
the Respondents-Defendants NYPD police’s malicious
violations that police brutally broken my room’s door,
wrongfully arrested me (the good person) and harmed
me; I have suffered from Elmhurst Hospital’s cruel
and malicious continuing violations they illegally
locked up me, the normal and no mental illness at all
person into psychiatric ward (Hospitalization); I still
be alive because the Mental Health Supreme Court’s
Hearing at the year of 2005 saved my life. I still have
ability to ask you, Honorable Supreme Court of the
United States nine Judges to review my case for
justice because I am the good person, normal and no
mental illness at all ever. I lived normally and I
worked normally. I ask Judicial Hearing and Trial
Rights (Constitutional Rights for justice), compensate
me.

8
3. The Respondents-Defendants committed the
malicious continuing violations harmed me as;
___ Elmhurst Hospital unconstitutionally prohibited
me to appear in Housing Court (at the year Of 2005)
that was in violation of my fourteen amendment due
process rights. They intentionally and cruelly caused
me losing of my living rights (rent room), they
maliciously persecuted me - homeless. I ask judicial
hearing and trial Rights (my case) - my constitutional
Rights for justice, compensate me.
(see detail at the Petitioner’s Petition for A Writ of
Certiorari Docket 20-388 at page 13-15).
The low Courts corrupted, without judicial a hearing
(my case) and without judicial a trial (my case); It is
same as the low Courts (Judges) watched and heard
me has being harmed and hurt maliciously (my
lawsuit raised proof facts and see Judge Hon.
JANICE A. TAYLOR’s Order at Appx. page 22-23),
but the low Courts’ Judges unconstitutionally don’t
go through judicial hearing and judicial trial for my
case. The low courts covered up the Respondents’Defendants the malicious continuing violation
unconstitutionally, wrongfully barred my federal
Lawsuit (07 CV 04868) and dismissed my Lawsuit
case. The U.S. Court of Appeals Second Circuit (and
low Court)’s unconstitutional destruction and harm
caused to my Rights which related mental hygiene
fields be deprived wrongfully and injustice, and
further it lead to I cannot get a job from any
employment agency and employer because the U.S.

9
Court of Appeals Second Circuit (and low court)
abused power, that U.S. Court of Appeals Second
Circuit (and low court)’s unconstitutional destruction
and harm continually prejudiced and impaired my
life permanently.
My life suffered from U.S. Court of Appeals Second
Circuit (and low court)’s unconstitutional destruction
and harm ... the sky collapse tears and the ground
spread pain. The unconstitutional destruction and
harm is unforgivable, by the law of universe, the
unconstitutional destruction (and harm) must cause
to billions times (where ever, when ever and
whatever) back to you all (your life) - Life Matter
“We are the Same Life and the Rights”.
Honorable nine Judges of the United States
Supreme Court; I have the constitutional Rights judicial hearing and judicial trial (my case) that is
Courts’ (Judges) job and the responsibility for justice.
Honorable nine Judges of the United States Supreme
Court please review my lawsuit case, further consider
and correct the low Courts’ errors of judicial abuse
power, compensate me.

10
CONCLUSION

For the foregoing the facts, the applicable
continuing violation doctrine Law and my U.S.
Constitutional Rights, as well as those set forth in
the Petition for A Writ of Certiorari (Docket 20-388),
LINGFEI SUN the Petitioner (Pro Se) respectfully
requests that this Court grant my Petition for
Rehearing and grant my Petition for A Writ of
Certiorari (20-388) to review my Lawsuit case and
further consideration for justice, compensate me.

Respectfully submitted,
LING FEISUN
!
L
•e/
87-11^52 Ave.
Sworn to before me on
December 2.0, 2020
JASMIN! WILLIAMS
Notary Public, State of New York
No. 0IWI6397948
Qualified in Queens County
Commission Empires September 16, 302:3

Elmhurst NY 11373
Mailing Address:
P.O.BOX 737823
Elmhurst, New York 11373
917-3797351

Notary Public

December 29, 2020

lfs2020912@vahoo.com

1
CERTIFICATE

As the Petitioner Pro Se, I hereby certify that this
petition for rehearing is presented in good faith and
not for delay and is restricted to the grounds
specified in Rule 44.

LINGFEI SUN Petitioner Pro Se
Petition for A Writ of Certiorari
(Docket 20-388)
Dated: December 29, 2020.

Sworn to before me on
December 29, 2020
JASMINE WILLIAMS
Notary Public, State of New York
No. QIWI6397949
Qualified in Queens County

Commission Expires September 14 20^3

JL£>Notary Public

